   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




January 25, 2011

TO:            Yolanda J. Butler, Ph.D.
               Acting Director
               Office of Community Services
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Tri-County Community Council, Inc.
               (A-04-10-01085)


The attached final report provides the results of our limited scope review at Tri-County
Community Council, Inc. In accordance with the Recovery Act, the Office of Inspector General
(OIG) will provide oversight of covered funds to prevent fraud, waste, and abuse.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
6 months. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-04-10-01085 in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 RESULTS OF LIMITED SCOPE
   REVIEW AT TRI-COUNTY
 COMMUNITY COUNCIL, INC.




                      Daniel R. Levinson
                       Inspector General

                        January 2011
                        A-04-10-01085
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L. No. 105-
285 (the CSBG Act), to provide funds to alleviate poverty in communities. Within the U.S.
Department of Health & Human Services, the Administration for Children and Families (ACF),
Office of Community Services administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAAs) that
create, coordinate, and deliver programs and services to low-income Americans. The CAAs
provide services and activities addressing employment, education, housing, nutrition, emergency
services, health, and better use of available income. The CSBG program awarded $620 million
in fiscal year (FY) 2007 and $643 million in FY 2008.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided an additional $1 billion to ACF for the CSBG program. CSBG
Recovery Act funds are distributed to CAAs using the existing statutory formula.

Florida’s Department of Community Affairs (DCA) acts as the lead agency for purposes of
carrying out State activities for the CSBG program. DCA is responsible for approving the
State’s CAA Recovery Act grant applications and monitoring the CAAs for compliance with
program regulations. DCA was awarded with an additional $29,060,460 in Recovery Act funds
for the State of Florida’s CSBG program.

Tri-County Community Council, Inc. (the Agency), a private, nonprofit organization, provides
services to households throughout Bay, Holmes, Jackson, Okaloosa, Santa Rosa, Walton, and
Washington counties in Florida. During FY 2009, DCA awarded the Agency $471,959 in CSBG
grant funds and a Recovery Act grant award totaling $1,028,570. For FY 2009, the Agency
received total Federal grant awards of $4,880,075.

OBJECTIVE

Our objective was to assess the Agency’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG programs in accordance with Federal
regulations.

SUMMARY OF FINDINGS

Based on our assessment, the Agency is financially viable, and its accounting system can
segregate costs for various Federal programs. However, the Board has not provided the Agency
with the oversight required by law and instead, has granted the Executive Director autonomy in
operating the agency. We also noted weaknesses involving inadequate safeguarding of Federal
funds, outdated or ineffective policies and procedures, a lack of documentation of inventory
oversight, and an inability to fully expend funds. As a result, the risk for mismanagement of

                                                i
Federal funds has increased and the Agency’s capability to operate the CSBG program in
accordance with Federal regulations may be impaired.

RECOMMENDATION

We recommend that DCA consider the information presented in this report in assessing the
Agency’s ability to operate the CSBG program in accordance with Federal regulations.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

The Agency noted corrective actions it had taken in regard to the lack of Board participation,
conflict of interest and procurement policy, lack of documentation of inventory oversight, and
inability to fully expend funds. Furthermore, it agreed that the CSBG policies and procedures
were in need of updating.

The Agency stated that it had never used signature stamps on contracts. In response to Agency
comments, we removed the word “contracts” from the report. However, we observed contracts
executed by the Executive Director or another employee of the Agency. These did not contain
Board member signatures. The Agency stated that when the Executive Director signs contracts,
an original resolution from the Board authorizing the Executive Director to execute contracts on
its behalf would be provided. However, the minutes did not include this requirement. Therefore,
we maintain that the Executive Director may affix signatures of Board members to checks via
rubber stamp, and that the Executive Director may enter into contracts on behalf of the Board.

The Agency stated that its bank accounts were Trust Sweep/Public Funds net interest checking
accounts. The documentation provided states that deposits are insured by the FDIC to the
maximum amount required by law, which we used in calculating the Agency’s insurance
coverage. Accordingly, we maintain that our finding is valid.

The complete text of the Agency’s comments is included as the Appendix.

.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Community Services Block Grant Program ..................................................1
              Florida’s Department of Community Affairs ................................................1
              Tri-County Community Council, Inc. ............................................................1
              Requirements for Federal Grantees ...............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATION.........................................................................3

          AUTONOMY OF EXECUTIVE DIRECTOR ..........................................................3
              Lack of Participation by the Board of Directors ...........................................3
              Checks Signed with Rubber Stamps .............................................................4
              Increased Risk for Mismanagement of Federal Funds .................................4

          INADEQUATE SAFEGUARDING OF FEDERAL FUNDS ..................................4

          OUTDATED OR INEFFECTIVE POLICIES AND PROCEDURES......................5
              Community Services Block Grant .................................................................5
              Conflict of Interest ........................................................................................5

          LACK OF DOCUMENTATION OF INVENTORY OVERSIGHT ........................6

          INABILITY TO FULLY EXPEND FUNDS ............................................................6

          RECOMMENDATION .............................................................................................6

          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE.............................................................................................................6

APPENDIX

            TRI-COUNTY COMMUNITY COUNCIL, INC COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

Community Services Block Grant Program

The Community Services Block Grant (CSBG) program was authorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P.L. No. 105-
285 (the CSBG Act), to provide funds to alleviate poverty in communities. Within the U.S.
Department of Health & Human Services, the Administration for Children and Families (ACF),
Office of Community Services administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAAs) that
create, coordinate, and deliver programs and services to low-income Americans. The CAAs
provide services and activities addressing employment, education, housing, nutrition, emergency
services, health, and better use of available income. The CSBG program awarded $620 million
in fiscal year (FY) 2007 and $643 million in FY 2008.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
February 17, 2009, provided an additional $1 billion to ACF for the CSBG program. CSBG
Recovery Act funds are distributed to CAAs using the existing statutory formula.

Florida’s Department of Community Affairs

Florida’s Department of Community Affairs (DCA) acts as the lead agency for purposes of
carrying out State activities for the CSBG program. DCA is responsible for approving the
State’s CAA Recovery Act grant applications and monitoring the CAAs for compliance with
program regulations. DCA was awarded with an additional $29,060,460 in Recovery Act funds
for the State of Florida’s CSBG program.

Tri-County Community Council, Inc.

Tri-County Community Council, Inc. (the Agency), a private, nonprofit organization, provides
services to households throughout Bay, Holmes, Jackson, Okaloosa, Santa Rosa, Walton, and
Washington counties in Florida. During FY 2009, DCA awarded the Agency $471,959 in CSBG
grant funds and a Recovery Act grant award totaling $1,028,570. 1 For FY 2009, the Agency
received total Federal grant awards of $4,880,075.

Requirements for Federal Grantees

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete

1DCA executed the Agency’s CSBG-ARRA contract for $774,556 on August 31, 2009. On
June 10, 2010, the Agency received an additional $254,014 for Bay County CSBG-ARRA,
bringing the total grant award to $1,028,570.

                                               1
reporting of grant related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. In addition, grantees must establish written procurement
procedures. Grantees are also required to maintain inventory control systems and take periodic
physical inventory of grant-related equipment. In addition, pursuant to 45 CFR § 74.27, the
allowability of costs incurred by nonprofit organizations is determined in accordance with the
provisions of Office of Management and Budget Circular A-122, Cost Principles for Nonprofit
Organizations. The CSBG Act establishes the CSBG program and sets the requirements and
guidelines for CSBG funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the Agency’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG programs in accordance with Federal
regulations.

Scope

We conducted a limited review of the Agency’s financial viability, financial management
system, and related policies and procedures. Therefore, we did not perform an overall
assessment of the Agency’s internal control structure. Rather, we reviewed only the internal
controls that pertained directly to our objectives. Our review period was October 1, 2006,
through June 30, 2010.

We performed our fieldwork at the Agency’s administrative office in Bonifay, Florida, during
July 2010.

Methodology

To accomplish our objective, we:

   •    confirmed that the Agency is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed the Agency’s application and implementation of the grant awards for the
        Recovery Act funding;

   •    reviewed the Agency’s audited financial statements and supporting documentation for the
        period of October 1, 2006, through September 30, 2009;

   •    reviewed the findings related to the most recent State review;

   •    reviewed the Agency’s policies and procedures, the CSBG Act, and ACF Information

                                                2
       Memorandum 112;

   •   reviewed the Agency’s bylaws, minutes from the Board of Directors’ meetings,
       composition of the Board, and organizational chart; and

   •   performed audit steps to assess the adequacy of the Agency’s current financial systems.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATION

Based on our assessment, the Agency is financially viable, and its accounting system can
segregate costs for various Federal programs. However, the Board has not provided the Agency
with the oversight required by law, and, instead, has granted the Executive Director autonomy in
operating the Agency. We also noted weaknesses involving inadequate safeguarding of Federal
funds, outdated or ineffective policies and procedures, a lack of documentation of inventory
oversight, and an inability to fully expend funds. As a result, the risk for mismanagement of
Federal funds has increased and the Agency’s capability to operate the CSBG program in
accordance with Federal regulations may be impaired.

AUTONOMY OF EXECUTIVE DIRECTOR

The Board abdicated its responsibilities for directing the agency by granting the Executive
Director autonomy in operating the Agency. The Board authorized the Executive Director to
enter into contracts on its behalf and to affix signatures of Board members to checks via rubber
stamp. As a result, any segregation of duties was eliminated, and the risk for mismanagement of
Federal funds increased.

Lack of Participation by the Board of Directors

Section 676B of the CSBG Act requires that all agencies administer the CSBG program through
a tripartite board that fully participates in developing, planning, implementing, and evaluating
the CSBG program. The Agency’s by-laws state that “[t]he governing body of the corporation
shall be its Board of Directors…. When present, the Chairperson shall preside at all meetings of
the Board. He/she may sign with the Treasurer and/or Executive Director, any contract, check,
agreement, or other instrument which the Board has authorized.”

The Board abdicated its responsibilities for directing the activities of the Agency and its
Executive Director by authorizing the Executive Director to enter into contracts on its behalf
during the January 14, 2010, meeting.


                                                3
Minutes from the Board of Directors’ meetings provide additional evidence that the Board does
not fully participate in developing, planning, implementing, and evaluating the CSBG program.
In three instances, the minutes included a statement that the CSBG Quarterly Report was
provided to the Board for review; however, minutes noted no specific comments or concerns
regarding that report. In a fourth instance, the minutes did not include a CSBG Report section.

Checks Signed with Rubber Stamps

The Agency used rubber stamps of Board members’ signatures to sign checks. The Agency
policy for signing checks provided that, in the absence of the Board Liaison (who is to safeguard
the rubber stamps), the Executive Director shall authorize the administrative assistant to stamp
checks:

       Checks along with supporting documents are submitted to the Finance Officer for
       review of accuracy and then submitted to the Executive Director for review and
       signature. A copy of the check register shall be faxed to the Treasurer, Chairman
       and/or Vice Chair for approval to use authorized signature stamp(s). The Board
       Liaison shall be the custodian of the signature stamps. Checks shall be stamped
       with appropriate signature stamp after receipt of at least one signed authorization
       form. In the absence of the Board Liaison, the Executive Director shall authorize
       the Administrative Assistant to stamp checks.

Increased Risk for Mismanagement of Federal Funds

Therefore, the Executive Director had the ability to control grant funds without the Board
oversight required by law. Without a Board Chairperson or Board Member’s signature on
contracts and checks, there is no evidence that the Board has authorized expenditures, and the
Board is limiting its governing authority over the Agency. This ability of the Executive Director
to control grant funds without Board oversight potentially exposes Board members to liability
issues.

INADEQUATE SAFEGUARDING OF FEDERAL FUNDS

Pursuant to 45 CFR § 74.22(i)(2), grantees are required to deposit and maintain advances of
Federal funds in insured accounts whenever possible. Federal Deposit Insurance Corporation
(FDIC) policy states that deposits owned by a corporation, partnership, or unincorporated
association are insured up to $250,000 at a single bank.

The Agency has approximately $3.8 million in cash or money market funds in different accounts
with one bank and its sister investment company. The Agency is insured for only $500,000 of
these funds. In the event of a bank failure, the Agency could lose all of its uninsured funds.




                                                4
OUTDATED OR INEFFECTIVE POLICIES AND PROCEDURES

Community Services Block Grant

Title II of the CSBG Act requires States that receive grant funds to establish fiscal control and
fund accounting procedures necessary to ensure the proper disbursal of and accounting for
Federal funds paid to the State, ensure that cost and accounting standards of the Office of
Management and Budget apply to a recipient of the funds, and have an audit of the expenditures
of the State and of grant amounts received. In accordance with the Act, ACF Information
Memorandum 112 states that risk assessments should contain current and clearly stated
administrative, fiscal, and programmatic policies and operating procedures in accordance with
the CSBG statute.

We requested but did not receive a copy of the Agency’s Recovery Act CSBG policies and
procedures. The Community Resource Director stated that the Agency used the same policy for
both the regular and Recovery Act CSBG programs and that the policy was outdated. Outdated
or ineffective policies and procedures could lead to improper use of program funds and could
impair the Agency’s capability to operate the CSBG program in accordance with Federal
regulations.

Conflict of Interest

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures that include specific procurement provisions. Among other
requirements, it specifies that: “Awards shall be made to the bidder or offeror whose bid or offer
is responsive to the solicitation and is most advantageous to the recipient, price, quality and other
factors considered.” Further, per the HHS Grants Policy Statement:

       HHS requires recipients to establish safeguards to prevent employees, consultants,
       members of governing bodies, and others who may be involved in grant-
       supported activities from using their positions for purposes that are, or give the
       appearance of being, motivated by a desire for private financial gain for
       themselves or others, such as those with whom they have family, business, or
       other ties. These safeguards must be reflected in written standards of conduct.

The Agency’s Financial Policies and Procedures Manual did not address the provisions set forth
in 45 CFR part 74, including the requirements upon which the purchasing decisions are to be
made, and did not adequately address conflicts of interest. Section IV(E) states that “purchasers
shall endeavor to obtain a full and open competition on all procurement transactions by avoiding
conflicts of interest.”

Without effective policies and procedures, the Agency could enter into conflict of interest
situations in the procurement of goods and services.




                                                 5
LACK OF DOCUMENTATION OF INVENTORY OVERSIGHT

The Agency’s Financial Policies and Procedures Manual, Section XIV(A) states that “[t]he
Executive Director shall review the inventory and sign the documentation.”

However, the Agency’s Executive Director had signed only one of the five inventory documents
we reviewed. There is no segregation of duties between the person performing the physical
inventory and the person preparing inventory lists. Without the Executive Director’s oversight
and without the segregation of duties, the likelihood of inventory errors is increased. The
Agency’s inventory is valued at $1.4 million.

INABILITY TO FULLY EXPEND FUNDS

Pursuant to the Recovery Act, the period of funds availability ends September 30, 2010. If
CSBG Recovery Act funds are not spent by September 30, 2010, funds must be returned to
DCA, and intended recipients may not receive the services as envisioned in the Recovery Act.

At the time of our fieldwork, the Agency had expended $363,575, or 35 percent, of the awarded
funds. The Community Resource Director stated that the 3-month delay in the execution of the
contract and the late funding for Bay County made it difficult to expend all of the funds in the
given period.

The Agency has adequate controls to assure unexpended funds are returned to the State.

RECOMMENDATION

We recommend that DCA consider the information presented in this report in assessing the
Agency’s ability to operate the CSBG program in accordance with Federal regulations.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

The Agency noted corrective actions it had taken in regard to the lack of Board participation,
conflict of interest and procurement policy, lack of documentation of inventory oversight, and
inability to fully expend funds. Furthermore, it agreed that the CSBG policies and procedures
were in need of updating.

The Agency stated that it had never used signature stamps on contracts. In response to Agency
comments, we removed the word “contracts” from the report. However, we observed contracts
executed by the Executive Director or another employee of the Agency. These did not contain
Board member signatures. The Agency stated that when the Executive Director signs contracts,
an original resolution from the Board authorizing the Executive Director to execute contracts on
its behalf would be provided. However, the minutes did not include this requirement. Therefore,
we maintain that the Executive Director may affix signatures of Board members to checks via
rubber stamp, and that the Executive Director may enter into contracts on behalf of the Board.


                                                6
The Agency stated that its bank accounts were Trust Sweep/Public Funds net interest checking
accounts. The documentation provided states that deposits are insured by the FDIC to the
maximum amount required by law, which we used in calculating the Agency’s insurance
coverage. Accordingly, we maintain that our finding is valid.

The complete text of the Agency’s comments is included as the Appendix.




                                               7
APPENDIX
                                                                                                      Page 1 of 13




APPENDIX: TRI-COUNTY COMMUNITY COUNCIL, INC COMMENTS 





                        T RI-COUNTY COMMUNlTY COUNCIL, INC. 

                                302 North Okla homa Street 

                                         Bonifay, FL 32425 



  Report Number: A-04-10-01085
  Respon~e to Findings and Recommendations
  December 01, 2010

  AUTONOMY OF EXECUTIVE DIRECTOR:

  Signature stamps have never been used for contracts. The Board Chair ill:. the Executive Director
  sign contracts, in which case an original Board Resolution from the board authori7ing the
  Executive Director to execute contracts on their behalf would also be provided.

  Grants to be applied for arc included on the agenda and are approved by the Board at regular
  ml'Ctings.

  Lack ofParticjpation by the Board ofDireclors:

  The Board Chair appointed all board members to serve on a commith.lc during the August 20 10
  mt.'Cting in an effort to prompt the members to be more involved. These committees are:
  Personnel; Finance; Programs; Head Start; and Boaro Development. There have been noted
  improvement in the involvement of the Board and both board and staff will strive to improve and
  expand the board's involvement and expand the minutes to includc more comments from the
  board.

  Checks Signed with Rubber Stamps:

  Currently the Chcek Register is reviewed by the authorized signers and only when a signed
  authorization form is received arc the stamps utilized. This is consistent with the cWTent B2lw1
  ~ - sec Attachment #1 from the policy . This policy has been in place since the mid 1990's.


  Inc[Cased Risk for Mismanagement of Federal Funds:

  The above issues will be addressed with the Boaro.

  fNADEOUATE SAFEGUARDING OF FEDERAL FUNDS:

  Tri-County Community Council's Regions Bank accounts are Trust Sweep/Public Funds net
  interest checking accounts. Our Regions representative assures us that our accounts are fully
  safeguarded by the attached Regions Pledging of Collateral policy. See Anachmen! #2.
                                                                                                       Page 2 of 13




Report Number: A-04+ 10-0 1085
Response to Findings and Recommendations
December 01, 2010
Page Two



OUTDATED OR INEFFECTIVE POLICIES AND PROCEDURES:

Community Services Block Grant

CSBG Program policy & procedures were in need of updating. Some staff members had
changed and the maximum amounts allowed per service had changed, Staff were given copies of
current work plans and budget detail so they were aware oflhe maximum amount:> for
c;'(penditUfCS in both CSHG and CSSG ARRA grants although the policies and procedures had
not been updated.

Conflict Q( Interest:

 The Confli ct of Interest is addrcs~cd in both the Personnel PQlicies & Procedures and the I!illrnl
Policy. See Attadunent #3. However, the Financial Polices and Procedure:;; Manual will be
updated to include Conflict of Interest and the Procurement Policy will be expanded to include
thc requirements addressed.

LACK OF DOCUMENTATION OF INVENTORY OVERSIGHT:

While perfonning the physical inventory revicw lit 913012009 thc Property Officcr wllS
accompanied by the Fiscal Assistant who was training to perform the inventory. Prior to that
tim<:, we had a limited staff of 3 and the Property Officer WIIS responsible for maintaining the
inventory list and had limited he lp in doing thl;': physical inventory check. lbe agency' sFinancial
Policies and Procedures Manual will be updated to include the procedures we are currently
following where the Property Officer is responsible for maintaining the inventory list and the
l:iscal Assistant docs the physical count of inventory. We will also be more diligcnt to include
the Executive Director

TNARTLlTy TO FULLY EXPEND FVNl)S:

Agency received the MOD to the CSBG Contract to include Bay County on June 16,2010. It
took until July 2010 to secure office space, fully staff thc office, and ~tllrt serving clients. All
CSBG ARRA funds were spent. All of the regu lar CSBG funds for the fiscal year were not spent
but the unspent amount falls within the 20% that is allowdble 10 carry forward into new fiscal
year.
                          Page 3 of 13




 ATIACHMENT # 1 




From the Board Policies
                                                                                                         Page 4 of 13




Organizational Finance

Signing checks
      Authorized signatories for all general fund accounts must include
two of the following : president of the board, treasurer of the board, other
board members designated as signatories by the board , and the
executive.

     The executive may authorize the use of a signature stamp for
checks. The signature stamp will contain the facsimile signatures of
authorized signatories.

     It is the responsibility of the executive director to ensure that
signatures can be gained from appropriate signatories so that payment
can be made on obligation of Tri-County Community Council , Inc. It is
also the responsibility of the executive to ensure that adequate controls
and safeguards have been established to ensure disbursement of funds
only for proper purposes.

     It is the respon::;ilJility or <::III I..:lu::l..:k s iglll::r::; tu I::II::;urt:: Llred there is
adequate documentation consistent with good internal controls, for valid
payment of checks they sign .

Use of credit cards
      The executive will authorize those staff members the use of the
agency credit card.     Credit cards wilt only be used for appropriate
agency business, and all uses will be appropriately documented . Agency
credit card will not be used for personal expenditures.

Investment plans
      Funds not required for current operations will be invested according
to an investment plan approved and revised annually by the board.

      Investments must be government-secured and guaranteed .
Investments may be made at the discretion of the executive within the
plan adopted by the board , with the exception of any investments in
securities with a maturity of more than one year which must have the
prior approval of the board.

        The executive will report the board the status of investments.

Executive limitation
     The executive director may not risk financial losses to the agency
beyond those that may occur in the normal course of business. The




                                                   32
                                                       Page 5 of 13




               ATTACHMENT # 2 




Regions Financial Corporation Pledging of Collateral
                                                                                                     Page 6 of 13




                             At.. REGIONS
                           Regions Financial Corporation 

                               Pledging of Collateral 


The following security types are used by Regions to pledge against Public Fund
deposits or Repurchase Agreement sweep transactions. All securities used are
part of the Regions investment portfolio. The following security descriptions are
taken directly from the Regions investment policy. The policy is approved by the
Corporate ALGO committee and the Board of Directors_

u.s. Government and Government Sponsored Entity Debt

   .:. 	 Non Callable U.S. Government and Agency Securities - Full faith and
         credit obligations of the United States Government and its sponsored
         agencies up to a remaining maturity of 30 years .

   •:- Callable and Structured Agency Securities - Debt securitie~ i~::;ut:!d by a
       federal agency or federally sponsored agency that contain "embedded
       options" up to a maturity of ten years.


Mortgage-Backed Securities"

   (> 	 Agency Mortgage-Backed Securities - Mortgage pass-through securities
        guaranteed by a federal agency .

    •:. 	 Bonds - Securities issued by Freddie Mac and Fannie Mae, government
          sponsored enterprises, that continue to maintain high credit ratings with
          added protection and support offered by the United States Treasury.
          Additionally, recent Congressional action with the passage of the Housing
          and Economic Recovery Act demonstrates the United States government
          will use all means available to ensure these entities remain solvent and
          well capitalized (July 24, 2008).

   Additionally, some Public Funds clients may have the following collateral type
   pledged against their deposits if it is allowable under their investment policy or
   under the policies of the state collateral pool to which they belong. Collateral
   types and methods of pledging are generally agreed to when Regions
   responds to the client's RFP.

        ':- Agencv CMO/REMIC Securities Agency CMOfREMIC securities with
            an expected average life less than 10 years.

'Agency secur'iliM includflthose from Govemment Sponsored Enterprises (Freddie Mac & Formie Mae) 

that issue their own debt. Treasury Securities include Treasury bills, notes and bends. 





                                          Updatad 1211/2010
                                                                                       Page 7 of 13




Regions ... Strength and Stability



                                    Market Share Gain
         Fast Facts About Regions

                                    "
                                             ,.,           ~            23" •          1


                                    "
                                    ~
                                             17A

                                             17.3
                                                           '"
                                                           ,~
                                                                         4%     •      4

                                                                         16% •         I
                                             ,.,                                       ,
                                                            "            '"'
                                                                                ···".
                                    ~

                                    .,
                                    "        ...,
                                             '.0
                                                            "
                                                             "
                                                                         16% •


                                                                          "
                                                                                       1



                                    AA

                                    n
                                                            ".-           '"' ''
                                             "v                           "
                          'j -
                                    "
                                    "'
                                    -
                                    "
                                    Nob" _
                                             ",..
                                              •.,
                                                            "
                                                            "
                                                            "
                                                             "            "
                                                                          "
                                                                          "       ·'·.
                                                                                  .".
                                             "" J" .... ]O, 2009. FOIe dfIO I*' S~ .
                                    ""~ ,,,_ o...,-", ~"""GoorJi:I.
                                                                                       '

                                    With $135 billion in
                                    assets, Regions ;s one
                                    of the naUon 's largest
                                    full-service providers
~. -,"

•
             i..
                                    of   consumer and
                                    commercial banking.


                                     A             REGIONS
                                                                                                                    Page 8 of 13




   Industry Challenges 	       Regions
   High.Risk Mortgages 	       Conservative underwriting: Regions maintains a consistent, discipUned lending
                               philosophy with prudent loan underwriting. Regions does not offer Pay Option
                               Adjustable Rate Mortgages, products designed for negative amortization, or
                               prod ucts that offer below market introductory rates (teaser rates).

   SIVs and COOs 	             None: Regions has a straight·forward balance sheet, We do not have any Structured
                               Investment Vehicles (SIVs) or Collateralized Debt Obligations (COOs).


   Subprime Mortgages 	        Solid portfolio, Regions has a solid mortgage portfolio and only 0.1% are
                               subprime loans.




   lier 1 Capita l Ratio
    Total Risk-based Capital Ratio
    'E~matoo




• Regioos Bank Branches
• Morean Keega n Off ices                                                                          Regions:
• 	 Regions Insuraoce Gmup                                                                Strength Through
                                                                                             Diversification
                                                                                           Regions Bank serves
                                                                                        customers in 16 states
                                                                                     across the South, Midwest
                                                                                        and Texas and operates
                                                                                   approximately l,&XJ banking
                                                                               offices and 2,200 ATMs. Nearly
                                                                                28,000 Regions associates are
                                                                                       comm itted to making life
                                                                                      better for thei r customers
                                                                                              and communities.



                                                                               .At.... REGIONS
                                                                                           It's time to   e~Dett   more.

                                                                               I,BOO.regions      I regions.com
                                                                               ~   C 2010 Regions B.nk. Membel FD1C.
                                                                                              lR... 8I 1111O)



                                                                                         FDICi
                                                                        Page 9 of 13




/




                                                                                /


                          ATIACHMENT#3



     Conflict of Interest from Personnel Policies and Board Policies



    ------------~                                     -~   ~ ---~ -   ~-----




                                                  ,
                                                                         Page 10 of 13




4.7   Conflict of Interest

AU employees shall avoid activities that create a conflict of interest
with their responsibility to the AGENCY . All employees are to
observe the highest moral and ethical standards in any dealings in
which they represent the AGENCY.

The AGENCY recognizes and respects each employee's right to
privacy and to engage in personal activities outside the scope of
employment. Each employee also has an obligation to refrain from
activities that conflict or interfere with the AGENCY'S operations.

The AGENCY reserves the right to determine when an activity
conflicts with the best interest of the AGENCY and to take action
necessary to resolve the conflict. If necessary. this action can
include terminating the employee.

Employees who are aware of conflict of interest violations are
obligated to report them to their supervisor immediately. Those who
fail to do so will be subject to discipline. Confidentiality of all
employees reporting conflicts of interest will be protected.




                                 -5­
                                                                            Page 11 of13




Board member conflict of interests
      Board members have a duty to subordinate personal interests to
the welfare of Tri ~Cou nty Community Council, Inc. , and those we serve.
Conflicting interests can be financial , personal relationships, status or
power.

       Board members and employees are prohibited from receiving gifts ,
fees , loans , or favors from suppliers, contractors, consultants, or financial
agencies , which obligate or induce the board member or employee to
compromise responsibilities to negotiate, inspect or audit, purchase or
award contracts , with the best interest of Tri-County Community Council ,
Inc.

      Board members or employees may not have a significant financial
interest in any property which Tri-County Community Council, Inc.,
purchases, or a direct or indirect interest in a supplier, contractor,
consultant or o ther entity with w hich Tri-County Community Council, Inc.,
does business.

      Since it is not possible to write a policy that covers all potential
conflicts, board members and employees are expected to be alert for and
avoid situations which might be construed as conflicts of interests. Refer
to separate "Board Director Conflict of Interest Policy" form




                                       5
                                                                                                   Page 12 of 13




Corporate Structure/Board Organization

       Any poss ible conflict of interests on the part of any board member
s hould be disclosed to the other board members and made a matter of
record, either through an annual procedure or w hen the interest becomes
a matter of board action .

       Any board member having a conflict of interest o r possible conflict
of interest should not vote or use his/her personal influence on the
malter, and he/she should not be counted as part of a quorum for the
meeting . The minutes of the meeting should reflect that a disclosure was
made, the abstention from voting and the quorum situation.

     These restrictions should not be construed as preventing the board
member from briefly stating his/her position in the matter, nor from
answering pertinent questions of other board members, since his or her
knowledge could be of assistance to the deliberations.

      All board members will be required to complete the "Conflict of
Interest Statement." This policy w ill be reviewed by the board annually
and given to each new board membe r for signature during the
orientation.                                     '

                     TRl-COUNTY COMMUNITY COUNCIL, INC. 

                  BOARD DIRECTOR CONFLICT OF INTEREST POLICY 


     The following policy shall be adhered to by all officers, directors, oflri-County
Community Council, Inc., involved in procurement activities:

       It is a breach ofethical standards for an officer, director, ofTri-County Community
       Council, Inc., to participate directly or indirectly in a procorement when:

              The officer, director, or immediate member of his/her family has financial interest
              in the procurement;

              A business organization in which the officer, director, or immediate family
              mcmber has a financial interest pertaining to the procurement; or

              Any other person, business, or organi7.ation with whom of11cers, directors, or any
              inunediate family member is negotiating or has arrangement concerning
              prospective employment is involved in the procurement.

~ 	    Where an officer, director, or immediate family member holds financial interest in blind
       trust, there will be no conflict interest, provided that the blind trust has been disclosed to
       the organi7.ation governing procurement ethics.

       Whenever the oflicer, director, discovers or becomes aware 01" such an actual or potential
       conflict, he/she should promptly withdraw from the procurement, or seek guidance on

                                                  6
                                                                                               Page 13 of 13




       participation from the group that governs procurement ethics for the agency.

I n addition, officer!! anti directors shall ad here to the followin g:

       Officers and directors ofTri-County Conununity COW1cii, Inc., shall avoid placing
       thcm5c1vcs in a situation where personal interest may. or appear to, conflict with the best
       interest orthe organi)'.ation. As stated in Public Law 97-300, section 141 (I), "No member
       of any Council under this Act shall cast on the provision of services by that member nor
       any organization which that member directly represents or vole on any malter which
       would provide direct financial benefit to that member."

Any officer or director with a conflict of interest shall:
       Re frain from voting on the proposed motion; and
•      Excuse themselves from any Board Discussion invo lving the proposed transactio n.

In addition, officers and directors <lTC prohibill,.-d from:
..      Receiving compensation for serving on the Board or providing services to the agency;
..      Being employed by the agency;
        Operate as an entity independent of staff employed al the agency.

Tri-County Community Council, Inc., staff shall be responsible for :
..     Recording in the Minutes oflhat particular Board meeting that a member abstained from
       influencing the Board's del; ision by ural/written communication or by casting a vote.


Board Members Signature                                                            Date




                                                   7
